                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: ~060500#20                                                                         Page' 1 of 1



                 We identified an institution' with a Research Experiences for Undergraduates (REU) award2
         that appeared to involve human subjects in its evaluation component although the "Human Subjects"
         box on the NSF proposal cover page was not checked. We contacted the institution which expressed
         its misunderstanding of the applicability of the human subjects regulation to evaluations of that type;
         the need to declare the exemption to NSF in the proposal process; and the necessity that its
         Institutional Review Board (TRB) have an approved assurance fiom the Office of Human Research
         Protections (OHRP). As a result the institution sought and received OHRP approval for its IRB and
         undertook a review of all active NSF awards and pending NSF proposals to ensure compliance. The
         REU award and six other awards were determined to qualify for exemptions, but one other award3
         and a pending proposal4were found to be lacking the appropriate review. The award and pending
         proposal were both reviewed and the institution has taken steps to update the respective NSF
         program officers.

                   Accordingly, this case is closed.




                                                                                           -
NSF OIG Form 2 (1 1/02)
